U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Anthony Robinson v. Department of Education,
S.CtNo. 19-512

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 5,
2019, and placed on the docket on October 21, 2019. The government's response is due on
November 20, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 20, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-05 12
ROBINSON, ANTHONY
DEPARTMENT OF EDUCATION

QUINN B. LOBATO
LOBATO LAW
210 GRISDALE HILL
RIVA, MD 21140
240-305-4770
QUINN.LOBATO@GMAIL.COM

